MECU of Baltimore, Inc. Visa® Credit Card Disclosure Information

Keep this for your personal records. It contains valuable information about MECU’s VISA® Platinum,
Platinum with Rewards, Platinum Secured and Signature Credit Cards.

Annual Percentage Rates (APR*) for Purchases
Annual Percentage Rates (APR)
for Visa Platinum

1.99% introductory APR for 12 months from date of account opening.
After that your APR will be 8.75% up to 24.00% based on your

Annual Percentage Rates (APR)
for Visa Platinum with Rewards

1.99% introductory APR for 12 months from date of account opening.
After that your APR will be 9.75% up to 24.00% based on your

Annual Percentage Rates (APR)
for Visa Platinum Secured

Your rate will be 12.92% APR. This APR may vary with the market
based on the Wall Street Journal Prime Rate.

Annual Percentage Rates (APR)
for Visa Signature

1.99% introductory APR for 12 months from date of account opening.
After that your APR will be 8.50% based on your credit worthiness. This

credit worthiness. This APR may vary with the market based on Wall Street
Journal Prime Rate.

credit worthiness. This APR may vary with the market based on Wall Street
Journal Prime Rate.

APR may vary with the market based on Wall Street Journal Prime Rate.

Annual Percentage Rates (APR) for Balance Transfers

Annual Percentage Rates (APR)
for Visa Platinum

Annual Percentage Rates (APR)
for Visa Platinum with Rewards

1.99% introductory APR for 12 months from date of account opening.
After that your APR will be 8.75% up to 24.00% based on your

credit worthiness. This APR may vary with the market based on Wall Street
Journal Prime Rate.

1.99% introductory APR for 12 months from date of account opening.
After that your APR will be 9.75% up to 24.00% based on your

credit worthiness. This APR may vary with the market based on Wall Street
Journal Prime Rate.

Annual Percentage Rates (APR)
for Visa Platinum Secured

Your rate will be 12.92% APR. This APR may vary with the market
based on the Wall Street Journal Prime Rate.

Annual Percentage Rates (APR)
for Visa Signature

1.99% introductory APR for 12 months from date of account opening.
After that your APR will be 8.50% based on your credit worthiness. This
APR may vary with the market based on Wall Street Journal Prime Rate.

Annual Percentage Rates (APR) for Cash Advances
Annual Percentage Rates (APR)
for Visa Platinum

Annual Percentage Rates (APR)
for Visa Platinum with Rewards
Annual Percentage Rates (APR)
for Visa Platinum Secured
Annual Percentage Rates (APR)
for Visa Signature
How to Avoid Paying Interest on
Purchases
Penalty APR
Minimum Interest Charge
For Credit Card Tips from
the Federal Reserve

1.99% introductory APR for 12 months from date of account opening.
After that your APR will be 8.75% up to 24.00% based on your

credit worthiness. This APR may vary with the market based on Wall Street
Journal Prime Rate.

1.99% introductory APR for 12 months from date of account opening.
After that your APR will be 9.75% up to 24.00% based on your

credit worthiness. This APR may vary with the market based on Wall Street
Journal Prime Rate.

Your rate will be 12.92% APR. This APR may vary with the market
based on the Wall Street Journal Prime Rate.

1.99% introductory APR for 12 months from date of account opening.
After that your APR will be 8.50% based on your credit worthiness. This
APR may vary with the market based on Wall Street Journal Prime Rate.
Your due date is at least 25 days after the close of each billing cycle. We
will not charge you interest on purchases if you pay your entire balance
by the due date each month.
None
None
To learn more about factors to consider when applying for or using a
credit card, visit the website of the Federal Reserve Board at:
www.consumerfinance.gov/credit-cards/agreements/

Fees
Annual Fee
Transaction Fees
Balance Transfer and Cash Advance
Foreign Transaction
Penalty Fees
Late Payment
Over-the-Credit Limit
Returned Payment
Other Fees
Card Replacement Fee
Pay-by-Phone Fee

None
None
Up to 1% of transaction in US dollars, dependent upon currency
conversion requirements
Up to $24, dependent upon your outstanding balance
None
Up to $15, dependent upon your outstanding balance
$10 Replacement fee
$5

How We Will Calculate Your Balance: We use a method called “average daily balance” including new purchases.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided
in your Account Agreement. Effective Date: The information about the costs of the card described in this
application is accurate as of March 1, 2017. This information may have changed after that date. To find out what
may have changed, contact MECU. Credit limits are based on credit worthiness and ability to repay.
*APR = Annual Percentage Rate

